 REVIEW OF FAA’S PROGRESS IN
ENHANCING AIR TRAFFIC CONTROL
      SYSTEMS SECURITY
     Federal Aviation Administration

      Report Number: FI-2010-006
     Date Issued: November 2, 2009
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Review of FAA’s Progress                                  Date:    November 2, 2009
           in Enhancing Air Traffic Control Systems Security
           Report Number FI-2010-006

  From:    Rebecca C. Leng                                                          Reply to
                                                                                    Attn. of:   JA–20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Federal Aviation Administrator

           This report presents the results of our review of FAA’s renewed initiatives in
           addressing air traffic control (ATC) systems security weaknesses discussed in our
           FY 2007 audit report of the Department’s information security program. 1 In that
           report, we identified the need to implement an operational business continuity plan
           (BCP) to ensure continued en route services 2 in the event of a long-term disaster.
           We also identified the need to enhance the system security certification and
           accreditation process across all air traffic control systems, not just the ones used to
           support en route operations.

           Homeland Security Presidential Directive (HSPD)–7 designates air traffic control
           systems as part of the Nation’s critical infrastructure, due to the important role
           commercial aviation plays in fostering and sustaining the national economy and
           ensuring citizens’ safety and mobility. The Secretary of Transportation is
           responsible for ensuring that air traffic control facilities, systems, and operations
           are protected from significant disruption caused by man-made or natural events
           and are able to resume essential services in a timely manner if disrupted, to
           minimize the impact on the Nation’s economy.



           1
               Audit of Information Security Program, DOT, OIG Report Number FI-2008-001, October 10, 2007. OIG
               reports can be found on our Web site: www.oig.dot.gov.
           2
               The 22 en route centers (Air Route Traffic Control Centers, or ARTCCs) control aircraft at cruising
               altitude (above 18,000 feet) in transit over the continental United States and out into the Atlantic and
               Pacific oceans. Each center handles a different territory of airspace, passing control from one center to
               another as respective borders are reached, until the aircraft begins to descend and is controlled by a
               terminal radar approach control facility (TRACON) and airport control tower as it nears its destination.
                                                                                  2



To fulfill the requirements of HSPD–7, the Federal Aviation Administration
(FAA) must protect air traffic control systems with a two-pronged approach:
preventing disruption wherever possible and minimizing disruptions when they do
occur. Implementing a BCP for en route services and enhancing security reviews
of all air traffic control systems are key to accomplishing these goals.

Our objectives were to determine FAA’s progress in correcting security
weaknesses previously identified in the air traffic control system by assessing
(1) the status of BCP implementation and (2) the enhanced methodology used in
the certification and accreditation of air traffic control systems security at
operational sites. This performance audit was conducted in accordance with
generally accepted government auditing standards prescribed by the Comptroller
General of the United States and included such tests as we considered necessary to
detect fraud, waste, or abuse. Details of our scope and methodology can be found
in Exhibit A.


RESULTS IN BRIEF

FAA has designated the William J. Hughes Technical Center in Atlantic City as
the recovery site where operations would be resumed if any en route center
became inoperable. It has made good progress in preparing the Technical Center
to serve as the recovery site, such as establishing a duplicate en route system
environment on-site and installing additional emergency power at the center. Yet
several unresolved technical challenges, staffing issues, and funding requirements
could delay recovery site readiness. Beyond this, FAA has not assessed how
activating the recovery plan during an emergency would affect air travel and the
economy across the country—a key concern in HSPD–7. Further, while FAA has
enhanced the process of reviewing ATC systems security, the reviews were not
properly carried out to ensure security protection of operational ATC systems.

Status of BCP Implementation

The unresolved technical issues concern radar coverage and air-to-ground
communications. While FAA has demonstrated the capability to use alternate
methods to redirect radar and communications signals from the affected en route
center to the recovery site, it has not established that using alternate methods can
meet FAA’s operational requirements to ensure safe air travel. Specifically, FAA
planned to use modems and regular telephone lines to transmit single-path radar
                                                                                                          3



signals 3 to the recovery site; however, it did not test the integrity of this
transmission to ensure that signals cannot be lost or disrupted.

FAA’s testing of its ability to re-route communications signals also entailed a
significant limitation—it used the network connections and communications
equipment in an en route center that was supposed to be out of service. According
to FAA, it will have to work with local telephone companies to establish new
connections between field communications equipment and the recovery site.
However, no detailed plan exists to implement this proposed action or to test
whether communications through these new connections can meet FAA’s
stringent latency requirement. 4 FAA needs to demonstrate that activating the
recovery site will not compromise the safety of air travel.

The recovery site cannot become operational without air traffic controllers on-site.
FAA has created a database containing the names of all controllers and the
airspace sectors in which they are certified to direct traffic. Should an en route
center become nonfunctional, FAA will use this database to identify controllers
qualified to direct traffic in the affected airspace. However, FAA has not
developed a plan to address related labor issues, including personnel relocation
and temporary housing. Further, FAA has not performed a cost estimate for
developing a fully functional BCP, as required by FAA’s Acquisition
Management System. Instead, FAA allocated $15 million to this development
effort by reallocating funds from other parts of its operations. Developing a cost
estimate based on the tasks that need to be completed is a basic project
management control. Without it, FAA cannot determine whether it has allocated
adequate funds for implementing all tasks critical to continued en route services at
the recovery site, such as relocating air traffic controllers. FAA needs to develop a
plan for relocating and housing air traffic controllers at the recovery site and
conduct a credible cost estimate for implementing the BCP.

Finally, under the current BCP, FAA pledges to restore 80 percent of any affected
en route center’s capabilities at the recovery site within 3 weeks of shutdown.
However, FAA did not analyze the impact on air travel that would be caused by
losing an en route center for 3 weeks. The impact could vary significantly,
depending upon the affected en route center’s traffic volume and the ripple effect
of delays to other parts of the country. The loss of the New York or Chicago
center, for example, would have a far greater impact than would the shutdown of

3
    More than 40 percent of long-range radars are single-path—with connections to only one en route center.
    Should the en route center become inoperable, it could no longer serve as a connection point between the
    radar and other ATC facilities.
4
    Latency is defined as the total time required to successfully transmit a unit of information across two
    network connection points. FAA requires that air-to-ground communications be completed within
    milliseconds (one thousandth of a second).
                                                                                                           4



less busy centers. Without such analysis, the Secretary of Transportation will not
be able to inform the Administration and the Congress about the potential impact
on air travel—and the economy—if FAA had to activate BCP operations. FAA
needs to assess the potential impact and provide the results to the Secretary in
support of HSPD–7.

Security Certification Reviews

FAA has enhanced the review process of ATC systems security in recent years by
sending teams to ATC facilities to evaluate systems in operation—directing air
traffic. This represents a significant improvement from the previous approach,
which focused on reviewing security controls of the ATC (baseline) systems in the
computer laboratory, but not the systems deployed to operational sites. 5 However,
FAA has not followed its own procedures to ensure that operational sites at risk of
having unauthorized system configurations are selected for evaluation. 6 Our
review of the site-selection methodology for five sample systems found only one
for which system configuration variance was reviewed in the site-selection
decision. A prior audit identified instances in which ATC systems were
configured differently in the field than from the baseline system, resulting in
security vulnerabilities for ATC operations. Currently, FAA has no way of
knowing whether its personnel selected the sites that did, in fact, pose the greatest
security risk for review. FAA needs to focus on reviewing system configuration
variances during site selection.

Further, the security reviews conducted at operational sites for our sample systems
lacked examination and/or testing, and were incomplete. The review teams relied
primarily on interviews with system operators to develop conclusions on the
adequacy of security controls. Further, 43 percent of security control items in our
sample systems were not reviewed. As a result, FAA cannot rely on these reviews
to detect and correct security vulnerabilities in operational ATC systems. FAA
therefore needs to better ensure the integrity and completeness of the security
reviews conducted on operational ATC systems.

Overall, despite FAA’s progress over the past 2 years in implementing a BCP for
continued en route services and expanding security evaluations of operational
ATC systems, additional action is needed to strengthen security protection and
minimize the impact of long-term service disruption. Issues concerning the

5
    ATC (baseline) systems are developed and tested in the computer laboratory before being deployed to
    operational sites. For example, the Host Computer is deployed to the 22 en route centers to support high-
    altitude air traffic control operations.
6
    System configuration involves setting up hardware and/or software to meet one’s particular needs, such
    as changing factory-set defaults. In the case of FAA systems, hardware or software can be configured
    one way in the computer laboratory, then altered in various ways to fit the needs of local installations.
                                                                                   5



security of a critical national infrastructure should receive priority attention at a
time of increased threats from nation-state-sponsored cyber attacks. We made a
series of recommendations, beginning on page 14, to help FAA implement a fully
functional BCP and strengthen its ability to protect operational ATC systems.
FAA concurred with the recommendations. FAA’s formal response is included in
its entirety in the Appendix to this report.


FINDINGS

Despite Progress, the Designated Recovery Site Is Not Yet Fully
Ready to Provide Air Traffic Control Services in Case of
En Route Center Disaster, and Impact on Air Travel Has Not
Been Assessed

Since 2007, FAA has made good progress in preparing the Technical Center to
serve as the recovery site, by establishing a duplicate en route system environment
and installing additional emergency power on-site. Yet unresolved technical
challenges, staffing issues, and funding requirements could delay recovery site
readiness. In addition, FAA has not assessed how activating the recovery site
during an emergency would affect air travel, threatening the Secretary’s ability to
inform the Administration and Congress of potential impact on the Nation’s
economy, a key concern in HSPD–7.

Unresolved Technical Challenges, Staffing Issues, and Funding
Requirements Could Delay Recovery Site Readiness

   Technical Challenges

   • Surveillance. This involves redirecting radar signals from the affected
     en route center to the recovery site. Long-range radar facilities are very
     important to air traffic controllers because they act as their eyes in the sky.
     Currently, 44 percent (60 of 137) of all long-range radar facilities that feed
     en route centers are single-path, meaning that the radar data are being fed
     only to a single air traffic control facility. This is a problem because if the
     en route center that receives the data is lost, the radar data cannot be easily
     re-routed to the recovery site. While FAA has identified an alternate
     method to transmit single-path radar signals, it did not test the integrity of
     this transmission to ensure signals cannot be lost or disrupted.

       As shown in Figure 1, dual-path radars can send signals to the backbone
       network (Federal Telecommunications Infrastructure [FTI]) even if one
                                                                               6



   path is lost; once there, FAA has shown that the signal can be redirected
   back to the recovery site during BCP operations. In contrast, the single-
   path radars lack this redundancy; if the one path is lost, the radar signal
   cannot reach FTI or, therefore, the recovery site.

  Figure 1. BCP Mitigation Strategy for Single-path Radar




     Source: OIG

   FAA’s planned strategy is to enable a backup modem on these radars and
   send the data over existing telephone/facsimile lines back to the recovery
   site. However, FAA did not test the integrity of this transmission to ensure
   that signals will not be lost or disrupted. As a result, FAA has no assurance
   that its current strategy can provide radar data sufficient to meet FAA
   operational standards; this strategy may, then, endanger flight safety if
   called upon to take over BCP activation.

   Single-path radars are as important as dual-path, and sometimes cover areas
   just as large. For example, a single-path radar facility in the Memphis
   region is responsible for providing radar coverage to an area half the size of
   the state of Mississippi. FAA must test the integrity of the planned use of
   back-up modems and existing telephone/facsimile lines to re-route data
   from single-path radars to the recovery site.

• Communications. Ground-to-air voice communications is a vital part of air
  traffic control operations that must be fully operational and meet safety
  requirements in order for the BCP to work in a live environment. This
  involves re-routing voice communications signals from the affected
  en route center to the recovery site. Major equipment involved in this area
  includes radio towers used to receive and transmit voice communications,
  which are connected to the voice switching equipment used at en route
                                                                          7



facilities that enables controllers and pilots to communicate. FAA has
made good progress in preparing the recovery site with the necessary
equipment, but faces challenges in the transmission of voice signals
between the recovery site and radio sites.

FAA has demonstrated its ability to redirect a ground-to-air voice channel
from a remote radio facility used by the Memphis Center to the recovery
site. A controller at the recovery site was able to communicate with a pilot
flying through Memphis Center airspace. However, the test did not
simulate realistic disaster conditions by bypassing the network connection
and radio control equipment located at the Memphis Center. The test was
also limited in that it represented just one of the many voice channels that
will need to be redirected during actual BCP operations.

According to FAA, the risk of affecting National Airspace System (NAS)
operations is too great—due to operational limitations in the existing
en route air traffic control communications system equipment—for
simulation testing. We understand FAA’s concerns about not harming
NAS operations. Nevertheless, the only way in which FAA can prove
operational readiness of the recovery site is by conducting realistic
communications testing that reflects the actual loss of an en route center.
In a similar situation in the late-1990s, FAA did perform simulation testing
on operational ATC systems to ascertain its readiness for the Year 2000
conversion, and did not in any way affect ongoing NAS operations.

FAA informed us that it will have to work with local telephone companies
to establish new connections between field communications equipment and
the recovery site should an en route center become nonfunctional.
However, no detailed plan exists to implement this proposed action or to
test whether communications through these new connections can meet
FAA’s stringent latency requirement (for speed of communications).
Without sufficient testing, FAA has no assurance that it could re-route
hundreds of communications channels while still meeting operational
requirements for signal speed. FAA needs to develop a detailed plan
addressing how it will install network connections between radio towers
and the recovery site through the local exchange carrier during BCP
operations, and conduct tests to ensure that communications through the
new connection can meet the latency (speed) requirements for air travel
safety.
                                                                                   8



  Staffing Issues

   According to National Institute of Standards and Technology (NIST)
   guidelines, having the right personnel available for BCP operations is a critical
   process. FAA has made progress in the area of human integration by creating
   a “ready reserve” database that contains the names of available and qualified
   air traffic controllers who could be called upon to serve during BCP
   operations. However, FAA lacks a human integration plan to relocate and
   house the required BCP staff, including the controllers who would need to be
   relocated from their assigned en route centers to the recovery site. In the
   absence of such a plan, FAA may not be able to activate the BCP in a timely
   manner because the recovery site cannot become operational without qualified
   air traffic controllers on-site. FAA needs to develop a plan to address human
   integration issues such as relocating and housing air traffic controllers at the
   Technical Center recovery site on a long-term basis.

   Funding Requirements

   FAA has not performed a cost estimate for implementing a fully functional
   BCP that includes personnel relocation and temporary housing for staff, as
   required by FAA’s Acquisition Management System. Instead, it allocated
   $15 million to the development effort by reallocating funds from other FAA
   programs and projects. FAA has spent a little less than half of the allocated
   funds, primarily to upgrade equipment at the recovery site. While it has about
   $7.5 million remaining in the budget, there is no support or analysis showing
   whether the remaining funds will be sufficient to resolve outstanding needs to
   make the BCP fully functional, such as resolving the technical challenges
   associated with radar and communications signals or relocating FAA
   personnel. Developing a cost estimate based on the tasks that need to be
   completed is a basic project management control. Without it, FAA cannot
   determine whether it has allocated sufficient funds for implementing all tasks
   critical to continued en route services at the recovery site. It needs, therefore,
   to sufficiently analyze costs to implement all tasks critical to continued
   en route services, and use such analysis to secure the funding necessary to
   complete the business continuity plan.


Impact on Air Travel from Activating the BCP Has Not Been Assessed

NIST guidelines call for developing a business impact analysis—a standard
business practice conducted prior to the development and construction of a
business continuity program. FAA’s BCP estimates restoration of 80 percent of
                                                                                                      9



any affected en route center’s capabilities within 3 weeks at the Technical Center
recovery site. However, the agency did not formally assess how the loss of each
of the 22 en route centers for 3 weeks would affect NAS operations as a whole.

Loss of air traffic control facilities has a proven negative effect on NAS
operations, and especially on the airline industry. Such disruptions have resulted
in a rippling, nationwide effect on flight cancellations and delays. For example, in
late 2007 the loss of the Memphis Center for 3 hours caused over 500 flight delays
and cancellations throughout the region. In 2003 the loss of the San Diego
Terminal Radar Approach Control facility for 35 hours resulted in over 700 flight
cancellations and significant delays throughout the NAS.

Since en route centers operate with varying levels of traffic, their losses would
affect the NAS in different ways. Major en route centers such as New York,
Cleveland, Atlanta, and Chicago handle a tremendous volume of air traffic,
compared with smaller centers such as Seattle and Salt Lake City. A 2004 study
by MITRE Corporation 7 suggested that airlines would lose $76 million a day if the
New York Center were closed (which did not include the economic impact of
cascading flight delays across the country). 8 Without a center-by-center business
impact analysis, the Secretary would not be able to inform the Administration and
the Congress about the potential impact on air travel—and the economy—if FAA
had to activate BCP operations. To support HSPD–7, FAA needs to conduct a
business impact analysis for either individual en route centers or centers having
the greatest impact on the NAS.


Review of Operational ATC Systems Security Is Inadequate to
Ensure Proper Protection

In response to our past recommendations, FAA has enhanced the certification and
accreditation process used to review and certify the adequacy of air traffic control
systems security deployed to operational sites. However, the process used lacks
an effective way of selecting operational sites at risk of having unauthorized
system configuration for security reviews. Past reviews have identified instances
in which FAA system was configured differently in the field than from the
baseline system in the computer laboratory in order to meet the operational needs
of different sites. These configuration variances have led to security weaknesses.
In addition, the security reviews conducted at operational sites lacked examination

7
    MITRE is a nonprofit organization that manages three Federally-funded research and development
    centers, including, for FAA, the Center for Advanced Aviation System Development.
8
    Description of Limitations and Potential Mitigation Strategies for Ensuring National Airspace System
    (NAS) Continuity of Operations: Provisional Findings, MITRE Corporation, July 2004.
                                                                                                  10



and testing to ensure proper implementation of security controls, and more than 40
percent of the security controls in our sampled systems were not reviewed at all.

Operational Sites at Risk of Having Unauthorized System Configuration
Were Not Considered for Security Review

FAA’s site-selection methodology requires the security review team to look at
information on four key aspects of the system—security categorization, system
environment, network connections, and configuration variances—before selecting
operational sites for review. Yet review teams did not perform an adequate
analysis of site-specific system configurations during the site-selection process to
determine which operational locations were most likely to exhibit configuration
variances.

• Security Categorization. FAA systems are categorized by how critical a
  system is in supporting FAA’s mission. The categorization levels for ATC
  systems range from low to moderate. Systems with a categorization of low are
  usually nonmission-critical systems; systems with an overall categorization of
  moderate are usually mission-critical.

• System Environment. ATC systems are grouped into one of three system
  environments: NAS Operations, Mission Support, and Administrative.
  Systems that operate in the NAS operational environment and also have a
  security categorization of moderate are mission-critical and have a significant
  impact on the performance of air traffic operations. Systems supporting the
  mission support and administrative environments do not have as significant an
  impact on air traffic operations.

• Network Connections. The likelihood that a cyber threat may be directed
  against a system is based on that system’s exposure level to the threat. A
  system’s network interface defines the connectivity and communications
  protocol, which are critical to assessing the risk of a cyber threat. Network
  interfaces are categorized into one of six groups. 9 The Internet/Extranet
  Internet Protocol (IP) environment has the highest risk of all system network
  connections.

• Configuration Variances. System configurations are established before
  deployment to the field. Most system configuration differences occur in order
  to meet the operational requirements that vary at each site. Since configuration
  differences may affect a system’s security posture, FAA requires that sites be

9
    NAS IP, Admin/Mission Support IP, Internet/Extranet IP, Closed System IP, Non-IP, and None.
                                                                                   11



    visited where system configuration differences exist, and checked to ensure
    that no security vulnerabilities have been inadvertently introduced.

Security categorization, system environment, and network connections often
remain the same for a system deployed to all installation sites. While these are
important criteria for determining how many installation sites should be visited,
they do not directly help with site selection. Instead, it is the last criterion,
configuration variances, that is key to identifying high-risk installation sites. This
makes the evaluation of configuration variances a key step in selecting specific
operational sites for review, which is critical because some air traffic control
systems are deployed to hundreds of operational sites. To determine the number
of and specific site locations to be visited, the security review team relies on
system owners to provide documentation and discussion of these key aspects
during the site-selection-determination process.

In reviewing the process and documentation of the site-selection methodology for
five sample systems, we found evidence that only one system’s configuration
variance was reviewed or discussed to identify where differences between the
local system and the baseline system might exist. Additionally, FAA was not able
to provide justification for site locations chosen for security review (see Table 1).


       Table 1. Documentation of FAA Site-Selection Process

                                                Configuration        Justification of
                                       Sites      Variance            Site Selection
System Namea        Total Sites    Reviewed     Documented?          Documented?
ADAS                         23            4         No                     No
ARTS III                      5            3         No                     No
ASOS                       885             5         Yes                    No
OASIS                        19            4         No                     No
WMSCR                         3            3         No                    Yes
a
 Full system names can be found in Exhibit A.
Source: OIG

Detailed analysis of system site configurations is an important step in choosing at-
risk systems for review, as well as in justifying the selection. Without a proper
analysis of systems’ local configurations, FAA is not able to select, for security
review, the sites that are at the greatest risk—the ultimate goal of this process.
                                                                                                 12



A previous audit 10 uncovered unauthorized system configurations being added to
operational air traffic control systems to meet local operational needs, without
central management’s knowledge. These unauthorized system configurations
made air traffic control systems vulnerable to attack—both from inside and
outside. In FY 2006, FAA’s Alaska Region experienced such an attack, which
prevented aeronautical information such as required flight data needed to support
various flight services from being transmitted and received. This attack was
facilitated by a vulnerable system on the network that had an unauthorized system
configuration. The attack forced FAA to manually provide flight information to
pilots flying in that region.

To eliminate such risks and prevent similar disruption, FAA needs to enhance the
selection process to include a more thorough review of system configurations.
FAA should also require the selection team to document the outcomes of the site-
selection process, including which specific sites were selected and for what
reasons.


Systems Security Reviews at Operational Sites Lacked
Examination/Testing and Were Incomplete

FAA review teams conduct security reviews of operational ATC systems by using
standard security questionnaires that are developed based on the security
requirements identified in NIST Special Publication 800-53, Recommended
Security Controls for Federal Information Systems. The questionnaires typically
contain from 96 to over 200 security questions, depending on the security
categorization rating of the system. We found that the security reviews conducted
at operational sites lacked examination and testing, and provided inadequate
coverage for security checks. As a result, FAA cannot rely on these security
reviews to ensure adequate security protection in operational ATC systems.

       Lack of Examination and Testing

       To assess the adequacy of the implementation of security controls, NIST
       Special Publication 800-53A, Guide for Assessing the Security Controls in
       Federal Information Systems, provides three methods of review: examination,
       interview, and testing. NIST 800-53A states that reviewers should, at a
       minimum, conduct examination-type reviews on each of the controls and use
       interview- and testing-type reviews to provide further assurance of proper


10
     Audit of Security and Controls over En Route Center Computer Systems, OIG Report Number FI-2004-
     078, August 9, 2004.
                                                                              13



implementation of a security control. We found little examination and/or
testing conducted at operational sites.

• Examination: This is the process of physically reviewing, inspecting, or
  observing security controls to ensure security controls have been properly
  implemented.

• Interview: This is the process of conducting discussions with individuals
  concerning the posture of the systems security controls.

• Testing: This is the process of exercising the control under specified
  conditions and comparing the actual outcome against expected outcomes.

NIST guidance states that security control assessments are the principal vehicle
used to verify that information systems are meeting their stated security goals
and objectives. It further stresses that these assessments are not about
checklists, simple pass-fail results, or paperwork to pass inspections or audits.

While review teams documented their conclusions on the questionnaires—
whether specified controls worked or not—they did not specify the methods
used in developing their conclusions. During one security review, OIG staff
observed that FAA reviewers relied primarily on interviews with system
operators in developing their conclusions, with limited examination and no
testing of security controls in operational ATC systems. Specifically, the
review team conducted interviews with an individual or a small group of
individuals familiar with the system. Further observation revealed only limited
examination-type reviews in the field, which included simply basic checks of
user settings and the system’s hardware connections. This happened because
FAA’s training for those assessing the systems did not address the importance
of examination or testing.

With such a high reliance on interviews and little assurance from examination-
and test-type reviews, FAA is unable to adequately ensure that minimum
required security controls are in place to protect air traffic control systems.
Such superficial reviews can prevent FAA from identifying vulnerabilities that
could expose the ATC system to unauthorized access.

Incomplete Review of Security Controls

Our review of 21 questionnaires completed for 5 ATC systems found that more
than 40 percent of the security controls on FAA’s questionnaires were not
reviewed. In examining 5,035 individual control questions, we found that
                                                                               14



  2,174 were left blank—43 percent—with no justification for the lack of
  coverage (see Table 2).

         Table 2. Results of Review of FAA Questionnaires
                         for Five Systems

                                                       Total
                        Number of         Total   Number of    Percentage
                    Questionnaires   Number of      Security   of Security
       System          Completed/      Security   Questions     Questions
       Name                System    Questions    Left Blank    Left Blank
       ADAS                      6       1,302           512          39%
       ARTS III                  2         712           268          37%
       ASOS                      8       1,519           740          48%
       OASIS                     2         434           214          49%
       WMSCR                     3       1,068           440          41%
         Total                  21       5,035         2,174          43%
      Source: OIG

  On two questionnaires, more than 70 percent of security controls, including
  critical access control and software change control, were not reviewed—again
  without justification. As a result, FAA cannot rely on these security reviews to
  ensure adequate security protection of operational ATC systems. This resulted
  from weak oversight of these reviews.

FAA needs to strengthen its on-site review procedures to ensure complete
coverage of security checks and examination and testing to ensure that required
security controls are in place.


RECOMMENDATIONS

We recommend that the Federal Aviation Administrator direct the Chief
Operating Officer of the Air Traffic Organization and the FAA Chief Information
Officer to:

En Route Business Continuity Plan

1. Conduct testing to ensure that radar signals will not be lost or disrupted when
   using modems and telephone/fax lines to send radar data to the recovery site.
2. (a) Develop a detailed plan addressing how FAA will install network
   connections between radio towers and the recovery site through the local
   exchange carrier during BCP operations, and (b) conduct tests to ensure that
                                                                                 15



   communications through the new connection can meet the latency (speed)
   requirements for air travel safety.
3. Develop a plan to address human integration issues such as relocating and
   housing air traffic controllers at the Technical Center recovery site on a long-
   term basis.
4. Conduct a credible cost estimate for testing the integrity of the alternate
   methods of re-routing radar and voice communication signals to the recovery
   site, and addressing human integration issues at the recovery site. Use such
   analysis to secure funding accordingly to complete the business continuity
   plan.
5. Assess the potential impact on air travel of losing each, or at least the most
   critical, en route centers for 3 weeks, and provide the results to the Secretary
   of Transportation in support of HSPD–7.


Air Traffic Control System Security Review

6. Enhance the site-selection process by requiring (a) thorough reviews of site-
   system configuration to ensure that sites that pose the greatest risk of
   unauthorized hardware/software configurations are selected for review and (b)
   documented justification for the sites selected for review.
7. Enhance training on on-site review by requiring review teams to conduct
   examination and/or testing to verify that required security controls are in place
   at operational sites.
8. Increase oversight of the on-site review process to ensure that all security
   control checks on the questionnaires are completed or properly justified if not
   reviewed.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided FAA a draft of our report on July 20, 2009, and received its written
comments on October 14, 2009. In its comments, FAA concurred with our
recommendations and has begun to take appropriate or alternative corrective
actions and provided acceptable target dates for completing these actions.

While FAA concurred with all of our recommendations, it informed us that there
are some limitations in addressing recommendation 5—to assess the potential
impact on air travel if an en route center was disrupted for 3 weeks. To address
                                                                              16



this recommendation, FAA plans to prepare for each ARTCC (1) a list of the
airports with commercial airlines, and (2) the number of air traffic operations
conducted, on average, during a 3-week period. According to FAA, however, its
assessment may be limited due to the lack of information on other factors that
would affect the impact—such as airlines’ plans to change their bases of
operations in the event of a major disruption. FAA notes that it is unlikely that
airlines would voluntarily provide this strategic information.

We agree that the list FAA plans to compile will provided needed information to
conduct its impact assessment. However, the list alone may not allow the
Secretary to meet HSPD–7 requirements to inform the Administration and
Congress of the potential impact on air travel and the economy when activating
BCP operations. Accordingly, we encourage FAA and the Secretary’s office to
work with airlines to develop a comprehensive impact analysis. FAA’s formal
response is included in its entirety in the Appendix to this report.


ACTIONS REQUIRED

FAA’s actions taken and planned are responsive to our recommendations and are
considered resolved. These actions are subject to follow-up provisions in
Department of Transportation Order 8000.1C. We appreciate the courtesies and
cooperation of FAA representatives during this audit, especially those at the
William J. Hughes Technical Center in Atlantic City. If you have any questions
concerning this report, please call me at (202) 366-1407 or Nathan Custer,
Program Director, at (202) 366-5540.


                                        #

cc: Chief Information Officer, DOT
    Assistant Administrator for Information Services/
      Chief Information Officer, FAA
    Chief Operating Officer, ATO
    Martin Gertel, M-1
    Anthony Williams, ABU-100
                                                                                  17


EXHIBIT A. SCOPE AND METHODOLOGY

Our objectives were to determine FAA’s progress in correcting security
weaknesses previously identified in the air traffic control system by assessing (1)
the status of the BCP and (2) the methodology used in the certification and
accreditation of air traffic control systems security at operational sites.

To achieve our objectives, we attended monthly progress briefings with
Department of Transportation and FAA Chief Information Officers, along with
FAA senior management representing the Air Traffic Organization’s (ATO) BCP
program and the Information Systems Security Manager (ISSM) Organization.
We reviewed the BCP concept of operations to understand the scope of the BCP.
We held meetings with personnel representing the work groups of the BCP
program and reviewed technical requirements documents to determine the status
and progress of the program. We conducted a tour of the recovery facility at the
Technical Center and observed demonstrations of rerouting both radar and voice
communications signals. We examined the human integration program and
program funding documents.

We interviewed ATO ISSM officials and reviewed documents to determine the
effectiveness of their site-selection methodology of the certification and
accreditation process. We visited the Minneapolis en route center to observe the
actual efforts that took place during the security review. In addition, we attended a
workshop sponsored by the ATO to determine what was being done to educate
and train security review teams. We examined security review results of the
following selected systems to determine the adequacy of reviews performed:

• Automated Weather Observation System Data Acquisition System (ADAS)
• Automated Radar Terminal System (ARTSIII)
• Automated Surface Observing System (ASOS)
• Operational and Supportability Implementation System (OASIS)
• Weather Message Switching Center Replacement (WMSCR).


We performed our audit work from October 2007 through May 2009. We
conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.


Exhibit A. Scope and Methodology
                                                                  18


EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


Name                              Title

Nathan Custer                     Program Director

Mitchell Balakit                  Senior Information Technology
                                  Specialist

Christopher Cullerot              Information Technology
                                  Specialist

Michael P. Fruitman               Writer-Editor




Exhibit B. Major Contributors to This Report
                                                                                                    19



APPENDIX. AGENCY COMMENT

                       Federal Aviation
                       Administration

Memorandum
Date:            October 14, 2009
To:              Rebecca C. Leng, Assistant Inspector General for Financial and Information
                 Technology Audits

From:            Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO

Prepared by:     Anthony Williams, x79000
Subject:         OIG Draft Report: Follow-up Review of FAA’s Progress in Enhancing Air Traffic
                 Control Systems Protection

Thank you for the opportunity to review and comment on the findings and recommendations of the
subject draft report dated July 20. The Federal Aviation Administration (FAA) concurs with all
recommendations. The following is FAA’s response to each recommendation.

OIG Recommendation 1: Conduct testing to ensure that radar signals will not be lost or disrupted
when using modems and telephone/fax lines to send radar data to the recovery site.

FAA Response: Concur. This method of testing was performed during several demonstrations that
occurred between August 8, 2007, and September 25, 2008, and resulted in no lost or disrupted radar
signals. It is almost identical to the way FAA receives data today. The only difference is FAA will
use regular telephone lines instead of leased lines. Currently, FAA is using dial-up lines in a number
of its air route traffic control centers (ARTCC) as backup for radar data connectivity.

OIG Recommendation 2: (a) Develop a detailed plan addressing how FAA will install network
connections between radio towers and the recovery site through the local exchange carrier during
business continuity plan (BCP) operations, and (b) conduct tests to ensure that communications
through the new connection can meet the latency (speed) requirements for air travel safety.

FAA Response 2(a): Concur. FAA's detailed plan on BCP operations is contained in its External
Communications Activation Plan and Harris playbook, issued March 16, 2009 and December 9, 2008,
respectively. The plan was assessed during the table top exercises in January 2009 and determined to
be sufficient by the test team. This plan is available for the Office of Inspector General’s (OIG)
review upon request.

Appendix. Agency Comments
                                                                                                      20



FAA Response 2(b): Concur. FAA tested redirecting a communications circuit from Memphis
center to the Spare ARTCC (SPARTCC) and found there is no difference between re-routing the
communication circuit at the ARTCC (i.e., this is how it was accomplished during the demonstration)
versus re-routing it at the local carrier within the Federal Telecommunication Infrastructure cloud.
FAA’s way of testing proved that re-routing can be done without any latency issues.

OIG Recommendation 3: Develop a plan to address human integration issues such as
relocating and housing air traffic controllers at the Technical Center recovery site on a long-
term basis.


FAA Response: Concur. The air traffic controllers’ union contract states that under conditions such
as a BCP event, personnel may be required to relocate their duty station. Additionally, the BCP
activation plans cover how FAA will relocate field personnel and provide them housing. These plans
were completed in March and are available for the OIG’s review upon request.

OIG Recommendation 4: Conduct a credible cost estimate for testing the integrity of the alternate
methods of re-routing radar and voice communication signals to the recovery site, and addressing
human integration issues at the recovery site. Use such analysis to secure funding accordingly to
complete the business continuity plan.

FAA Response: Concur. The necessary infrastructure to convert the labs is in place, the activation
plans are issued, and all readiness assessments and demonstrations have been completed. The BCP
program will officially declare the SPARTCC “activation ready” once the Service Level Agreement
(SLA) and the NAS Change Proposal (NCP) for Internet Protocol (IP) radar have been signed. The
SLA and NCP serve as the basis of FAA’s funding requests. The SLA has been signed and the NCP
will be signed by October 31, 2009.

OIG Recommendation 5: Assess the potential impact on air travel of losing each, or at least the
most critical, en route centers for 3 weeks, and provide the results to the Secretary of Transportation in
support of the Homeland Security Presidential Directive (HSPD)–7.

FAA Response: Concur. The 2004 MITRE study included information on the “Potential Revenue
Loss to Air Carriers Due to ARTCC Outage Scenarios” showing the results for each ARTCC. FAA
does not see added value in further analysis above what MITRE concluded in its 2004 report. The
range is over $40 million per day for New York Air Route Traffic Control Center to over $5 million
per day for the Salt Lake Center Air Traffic Control. Clearly, the service impacts vary with the
volume of traffic and the national and seasonal flows. Additionally, the FAA will provide the OIG
with a list of airports (with commercial airlines) that underlie each ARTCC, and a total number of air
traffic operations that each of those ARTCC’s conducts, on average, during a three-week period. This
information will be provided by November 30, 2009.

OIG Recommendation 6: Enhance the site-selection process by requiring (a) thorough reviews of
site-system configuration to ensure that sites that pose the greatest risk of unauthorized
hardware/software configurations are selected for review and (b) documented justification for the sites
selected for review.

Appendix. Agency Comments
                                                                                                       21



FAA Response: Concur. Since fiscal year (FY) 2007, the Air Traffic Organization (ATO) has
enhanced the Certification and Authorization (C&A) Level of Effort (LOE) process to better identify
and justify site-selection. FAA has been discussing methodology with the OIG for selecting specific
sites and the number of sites for each system undergoing C&A. This methodology is described in the
following paragraphs.

The LOE process requires that the System Owner submit an LOE Briefing and System
Characterization document prior to scheduling field site visits for that system. The information
required provides technical details on the system architecture and operating environments, and
includes configuration variances that may exist at certain sites, based on the System Owner Program
Office, and their support organizations when appropriate. The LOE Briefing has a specific section
that requires detailed information on system configuration differences and locations where the
configuration differences may exist. The ATO Information System Security (ISS) Program reviews
both documents and identifies specific sites that are tagged as “must be visited” sites. In addition, the
objective of selecting an adequate number of representative sites must be met for each system.
Typically, there is a minimum of three operational sites that must be visited for all systems, unless a
system has less than three fielded locations. This objective of a minimum of three sites is
implemented even for systems that are deployed with the same standard configuration baseline. For
example, if a system is operating at 20 ARTCCs, then a minimum of three ARTCCs must be visited to
obtain an adequate representative sample, even though the systems have the same configuration
baseline. There is also a conscious effort to distribute the site visits across multiple facilities for
systems being recertified, so that different facilities are selected for the current year, as compared to
the last C&A site visits (typically three years earlier). This approach provides a broader site visit
sampling spreading across different C&A years. So visits in FY 2010 for a specific system will
intentionally pick different sites than those selected in FY 2007, unless there are specific reasons to
revisit the same facility for that system (i.e., certain facilities tend to be used as a “key site” for
implementing technology/functionally upgrades, prior to making the changes at other sites for that
specific system).

Additionally, the ATO LOE process requires mandatory visits to sites where systems are configured
differently from the standard system configuration baseline to assess the risk of the different
configurations at specific sites. For example, if a system is deployed to 20 ARTCCS and one of the
systems has a significantly different configuration than the other 19 (e.g., hardware, software,
internal/external connectivity), then that site with the different configuration must also be audited in
addition to the minimum three site visits.

System sites are also selected based on the facility type where the system is deployed to assess the risk
of systems deployed in different operating environments. For example, systems that may be deployed
in both the En Route (e.g., ARTCCs) and Terminal [e.g., Terminal Radar Approach Control
(TRACON) facilities] environment must include site visits to both En Route and Terminal facilities to
assess the system risk in those operating environments.

Mandatory site visits and justification are documented in the Risk Assessment Site Survey Plan and
the System LOE Determination, which is developed each Fiscal Year for every ATO system that is
scheduled to complete C&A.


Appendix. Agency Comments
                                                                                                     22



Results of the LOE Determination are emailed by the ATO ISS Program to the Independent Risk
Assessment and Test Team (IRAT) and System Owner, including a copy of the System Site Survey
Plan. After the LOE Determination is transmitted, further discussions occur between the IRAT and
the System Owner organization to validate the system configuration baseline and possible
configuration differences that may be fielded. If configuration differences are identified after the LOE
Determination, the ATO ISS Program is notified and the System LOE Determination is modified to
include mandatory site visits to the sites where configuration differences exist.

OIG Recommendation 7: Enhance training on on-site review by requiring review teams to conduct
examination and/or testing to verify that required security controls are in place at operational sites.

FAA Response: Concur. FAA has completed implementation of this recommendation as described
below.

The ATO security operating environment is very complex, with hundreds of systems, thousands of
manned and unmanned facilities, operations, and management processes sprawling across 50 states
and international borders. Understanding how to properly apply risk analysis and security testing
processes across the ATO environment is equally complex and must take into account several key
aspects.

The first key aspect is that the ATO consists of three distinct operating environments – NAS, Mission
Support, and Administrative. The NAS environment includes systems that directly support safety-
critical Air Traffic Control (ATC) services. Because of the safety critical nature of the NAS
environment, NAS systems must be protected and operate at higher information assurance levels than
Mission Support and Administrative systems. Mission Support systems indirectly support the conduct
or management of ATC operations and do not impact safety of ATC operations. Administrative
systems support the provision of routine ATO administrative services, such as email. Mission
Support and Administrative systems have a completely different operations, management, and
maintenance infrastructure than NAS systems. Additionally, there are major differences in the
application of security controls and processes for conducting risk assessment and testing in each
environment.

The second key aspect in ATO is the separation of NAS systems operating environment from the
Mission Support/Administrative systems operating environment. Separation is provided through the
use of two network infrastructures that are physically and logically isolated, as follows:

•   NAS Operations (Ops) IP Network
•   Mission Support/Administrative IP Network.

The physical and logical separation of the NAS and Mission Support and Administrative networks is a
critical factor in ensuring that NAS systems can continue to provide a high level of service
availability, information integrity, and confidentiality needed to maintain air traffic safety and
efficiency.

The third key aspect of the ATO operating environment is the use of authorized communications
gateways and Internet Access Points (IAPs) to provide boundary protection between the NAS and
Mission Support and Administrative environments and external network infrastructures. Additionally,
Appendix. Agency Comments
                                                                                                        23



specialized system communications gateways, such as the ARTS Gateway (AGW), provide boundary
protection between NAS systems and other non-NAS systems [e.g., the ARTS and National Offload
Program (NOP)].

The ATO operating environment was specifically architected to separate the NAS environment from
the Mission Support/Administrative environment because NAS systems provide safety critical ATC
services. NAS systems operate on a physically separate network infrastructure from all other FAA
systems in order to maintain a higher service assurance level and minimize risk. Any disruption to a

NAS system may cause impacts to safety and efficiency. Even short-term system outages cause
ripples throughout the NAS that may result in significant adverse impacts in terms of extra fuel
consumed and time delays. Because of safety and economic factors, the primary consideration in
conducting security testing of NAS operational systems is to ensure that NAS services are not
interrupted.

In order to maintain NAS safety and efficiency, and continue to provide the NAS operating
environment with a high level of information assurance, ATO has taken several steps during the past
three years to enhance its security testing methodology, and to provide enhanced test methodology
training to Independent Risk Assessment Team (IRAT) personnel, which is described in the following
paragraphs.

Since fiscal year (FY) 2007, the ATO has enhanced the process for testing critical ATC systems at
NAS operational sites by conducting observation and demonstration testing of implemented security
controls. With the implementation of NIST 800-53A, greater use of examination and testing will be
needed. For most NAS systems, the stringent implementation validation of all changes to systems is
fully tested at the support centers William J Hughes Technical Center (WJHTC) and Mike Monroney
Aeronautical Center (MMAC) prior to releasing to the field. The formal process of releasing System
Support Modifications (SSM) for NAS Systems and creating an audit mechanism through the
Maintenance Management System, allows the tracking of individual sites implementing planned
upgrades and modification. For NAS systems, field personnel are implementing changes as directed
through SSM issued for the system, otherwise system configurations seldom change.

As for conducting electronic security scan testing, it is a well known fact that even the use of non-
intrusive security testing tools does occasionally cause various operating system failures or lock-ups.
Therefore, ATO relies on greater observation and demonstration testing methods at the system
operational sites, and conducts much of the security testing using replicas of fielded systems in the
WJHTC or MMAC test environments.

In fielded operational sites, observation and demonstration consists of the FAA system specialist
demonstrating system security controls through presentation of “screen shots” or printouts of system
security policies. Although demonstration and observation testing requires more time than system
scanning, it significantly reduces the chances that testing will inadvertently “bring down” an
operational NAS system. Additionally, demonstration and observation testing eliminates potential
“false positives” that are encountered through the use of scan test tools. Part of the enhanced process
moving forward will be to perform extractions from the observation and demonstration testing (e.g.,
printouts) in order to better document testing results at the operational site. For fielded assets such as
routers, firewalls, managed switches, etc., greater use of extractions of configuration files and rules
Appendix. Agency Comments
                                                                                                       24



are planned to validate against the version controlled releases of those files from WJHTC and
MMAC, which would be tested in the support system environment.

A key measure that ATO has undertaken is to conduct operational site security testing of new ATC
systems, prior to commencement of ATC operations. The full range of security tests, including scan
testing is conducted on the system at the operational site. This ensures that the system is tested in the
exact operational site configuration. Examples of operational site testing included the Wide Area
Monitoring System (WAM) and Operational and Supportability Implementation Systems. ATO will

continue to conduct operational site testing using scan test tools on all new ATC systems as they
continue to be deployed in the NAS.

The ATO also conducts security testing for legacy ATC systems using passive and active (e.g.,
penetration testing) software tools on system at either the WJHTC or MMAC laboratories. The labs at
WJHTC and MMAC also have the capability to be configured to represent a specific operational site.
For example, the WJHTC ATOP lab can be configured to the same operational site configuration as
the ATOP system deployed at New York, Oakland, and Anchorage.

Additionally, ATO conducts on-site testing of operational ATC mission support systems if there will
be no impact to operational ATC Systems. Some examples of ATC mission support systems tested
on-site include National Off-Load Program (NOP), CRU-X, CAEG, IAPs, LSSD, and
STARCASTER.

Moving forward, the ATO will use a combination of all the methodologies listed above to continually
assess ATC system security, while continuing to minimize the potential for adversely impacting air
traffic safety or efficiency.

Risk Assessment Team personnel, both FAA and contractor, participated in the enhancement of the
system security testing methodology and were trained as part of the development efforts. All new
IRAT FAA personnel are trained on-the-job via shadowing techniques and study of risk assessment
process documentation. New contractor personnel are required to have security risk assessment and
testing experience and are trained on the specific methodology via internal company training.

OIG Recommendation 8: Increase oversight of the on-site review process to ensure that all security
control checks on the questionnaires are completed or properly justified if not reviewed.

FAA Response: Concur. FAA has completed implementation of this recommendation. The ATO
uses a questionnaire as part of the Risk Assessment on-site review process. The questionnaire
consists of NIST SP 800-53 rev2 security controls that address all 17 NIST 800-53 Security Control
Families. Systems that have a FIPS-199 Security Categorization (SC) of Low, Moderate, or High are
evaluated using the appropriate Low, Moderate, or High set of NIST 800-53 rev2 security controls
(i.e., questionnaire). For example, a questionnaire that contains the “Moderate” set of security
controls will be used to assess a system with a “Moderate” FIPS-199 SC. Questionnaires that contain
the “Moderate” set of security controls consist of the Moderate and Low set of NIST 800-53 Security
Controls. Finally, questionnaires that contain the “Low” set of security controls consist of only the
Low set of NIST 800-53 Security Controls.


Appendix. Agency Comments
                                                                                                      25



Depending on their life cycle support, there are some NIST Security Control Families, and specific
controls within Families, that are not applicable for conducting interviews of system technical
personnel. Implementation of some NIST Common Security Control Families, such as CA, may be
the sole responsibility of another FAA organization, such as FAA Headquarters or the System 2nd
Level Support Facility, and not the on-site system specialist. For example, questions in the CA
Family of NIST 800-53 Security Controls may be categorized as “Common Controls” and are the
responsibility of FAA Headquarters organizations, not the responsibility of field site personnel.

Starting in FY 2009 the ATO enhanced the on-site review process, in order to eliminate “blank” or
“NA” questions that may result from on-site reviews. Enhancements include tailoring the
questionnaires to indicate whether a specific question (security control) is appropriate for use on site,
depending on the role(s) of the facility/site personnel. For example, field specialists that are not
responsible for issuing changes to a system’s Technical Manual will be annotated as N/A for that site,
and further annotated to indicate what organization is responsible or would be the source of the
information being requested (e.g., WJHTC issues Technical Manual Revisions). The tailoring may
include documenting on each specific question (security control) whether it applies, including the
rationale. For example, some questions that are not applicable for on-site review, such as the CA
family, are annotated “N/A Common Control,” and are not addressed during the on-site review. This
enhanced process includes responses to all questions on the site survey form, and reduces the chance
that a question may not be addressed, and provides justification for focusing responses for specific
questions based on an individual's organization's role in developing and implementing security
controls.

S:\\ABU-100\OIG GAO\09-20 ATC Sys Sec revised final 9/2/09




Appendix. Agency Comments
